          DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                          Office of Inspector General



                                                                                           Washington , D.C. 20201




                                                 JUL 1 5 2011



TO: 	           Donald M. Berwick, M.D.
                Administrator
                Centers for Medicare & Medicaid Services


                              /S/
FROM:           Stuart Wright
                Deputy Inspector General
                  for Evaluations and Inspections



SUBJECT: 	 Memorandum Report: Early Review a/States' Planned Medicaid Electronic
           Health Record Incentive Program Oversight, OEl -05-10-00080



This memorandum report describes States' plans to verify that health care practitioners and
hospitals meet program eligibility requirements for State Medicaid Electronic Health Record
(EHR) incentive programs for 2011 and what limitations, if any, they anticipate in their
oversight.

SUMMARY

The Health Information Technology for Economic and Clinical Health (HI TECH) Act, enacted
as part of the American Recovery and Reinvestment Act (ARRA), established Medicare and
Medicaid EHR incentive programs to promote adoption of EHRs. An EHR system is a
computerized recordkeeping system that contains patients' health-related information, including
medical history.
State Medicaid agencies (hereinafter referred to as States) administer their own Medicaid EHR
incentive programs and are responsible for overseeing their integrity. The Centers for Medicare
& Medicaid Services (CMS) identified Medicaid EHR incentive program eligibility as an
oversight priority for States' Medicaid EHR incentive programs in 2011.
We found that all 13 States in our study reported that they plan to verify at least half of eligibility
requirements prior to making EHR incentive payments. To verify eligibility requirements, States
plan to compare self-reported eligibility information to other data sources. Verifying
self-reported eligibility information prior to making payments helps States ensure the integrity of


OEI-05-10-00080 Early Review of States' Planned Medicaid EHR Incentive Program Oversight
Page 2 – Donald M. Berwick, M.D.


their EHR incentive payments. In addition, all States plan to audit eligibility requirements after
payment.
We also found that data availability limits both the number of eligibility requirements that States
plan to verify prior to payment and the completeness of those verifications. Depending on the
eligibility requirement, States may have none, some, or all of the data they need to conduct a
complete verification. Most States do not plan to start collecting all of the necessary data
because the effort would be resource intensive and not logistically practical for most States.
States cannot conduct complete verifications for eligibility requirements without the necessary
data.

BACKGROUND

The HITECH Act, enacted as part of ARRA, established EHR incentive programs for both
Medicare and Medicaid to promote adoption of EHRs. 1 Between 2011 and 2019, the Federal
Government will spend an estimated $20.6 billion on the Medicare and Medicaid EHR incentive
programs—$7.2 billion for the Medicare EHR incentive program and $13.4 billion for the
Medicaid EHR incentive program. 2
An EHR system is a computerized recordkeeping system that contains patients’ health-related
information, including medical history. Among other functions, EHR systems have the capacity
to provide clinical decision support, which helps practitioners make evidence-based treatment
decisions. 3
Medicaid EHR Incentive Programs
States oversee their own Medicaid EHR incentive programs (hereinafter referred to as EHR
incentive programs) and make incentive payments directly to health care practitioners and
hospitals. 4, 5 As of June 30, 2011, 13 States had paid over $166 million in incentive payments. 6
CMS provides enhanced Federal financial participation (FFP) to States for their EHR incentive
programs. CMS provides 100 percent FFP to States for the cost of incentive payments made to
health care practitioners and hospitals and 90 percent FFP for administrative expenses and
planning activities related to the EHR incentive program. 7 For example, a State would receive



1
  ARRA §§ 4101 and 4201, amending Titles XVIII and XIX of the Social Security Act.
2
  CMS Justification of Estimates for Appropriations Committees, Fiscal Year 2012. Accessed at www.cms.gov on July 5, 2011.
3
  Clinical decision support is contained in an interactive computer program or application that helps health care practitioners
make treatment decisions for better patient care. Clinical decision support could provide a range of assistance, such as patient
management best practices and clinical research findings.
4
  States are not required to create Medicaid EHR incentive programs.
5
  Health care practitioners and hospitals refer to Eligibile Practitioners (EP) and Eligible Hospitals (EH), respectively. EP and
EH are defined in 42 CFR § 495.304.
6
  CMS Spotlight and Upcoming Events page. Accessed at www.cms.gov on July 11, 2011.
7
  Social Security Act § 1903(a)(3)(F)(i) and (ii).


OEI-05-10-00080 Early Review of States’ Planned Medicaid EHR Incentive Program Oversight
Page 3 – Donald M. Berwick, M.D.


90 percent FFP to create a Web-based registration system for health care practitioners and
hospitals to use to register for incentive payments. 8
States are responsible for overseeing their EHR incentive programs and ensuring the integrity of
incentive payments. 9 Specifically, States must have an oversight plan to combat fraud, waste,
and abuse, which includes checking that health care practitioners and hospitals are eligible for
incentive payments. 10
States must submit their oversight plans to CMS, which reviews and approves them before States
receive FFP for their EHR incentive programs. 11 According to CMS, States are encouraged to
revise their plans as they make changes to their EHR incentive programs.
CMS has identified EHR incentive program eligibility requirements as an oversight priority for
States’ EHR incentive programs in 2011. 12 States must have a plan for how they will ensure that
health care practitioners and hospitals meet EHR incentive program eligibility requirements.
States’ oversight plans may include verifying eligibility requirements prior to payment or
auditing eligibility requirements after payment.
EHR Incentive Program Eligibility Requirements
To receive EHR incentive payments, health care practitioners and hospitals must meet certain
eligibility requirements, as defined in HITECH and CMS regulation.
Only certain types of health care practitioners and hospitals may receive incentive payments
from States. 13 Types of health care practitioners (hereinafter referred to as practitioners) that are
eligible include physicians, dentists, certified nurse midwives, nurse practitioners, and physician
assistants (PA) practicing in federally qualified health centers (FQHC) or rural health centers
(RHC) that are led by PAs. Practitioners must not be hospital-based (i.e., must not have
90 percent or more of their Medicaid patient volume in a hospital inpatient or emergency
department setting). 14 Types of hospitals that are eligible include acute care hospitals with an
average length of stay of 25 days or less and children’s hospitals. 15 Practitioners and hospitals
must be licensed and not otherwise sanctioned from receiving Medicaid reimbursement. 16
All practitioners and hospitals must also meet defined patient volume percentage requirements.
Practitioners must have at least 30 percent Medicaid patient volume (20 percent for


8
  CMS State Medicaid Director Letter, August 17, 2010 (SMD# 10-016), Enclosure A. Accessed at www.cms.gov on
July 11, 2011.
9
  Social Security Act § 1903(t)(9)(B).
10
   42 CFR § 495.332(b), (c), (d), and (e).
11
   42 CFR §§ 495.316(b) and 495.332.
12
   CMS State Medicaid Director Letter, August 17, 2010 (SMD# 10-016). Accessed at www.cms.gov on July 11, 2011.
13
   Social Security Act §§ 1903(t)(2) and (t)(3)(B); 42 CFR § 495.304.
14
   Social Security Act § 1903(t)(2)(A); 42 CFR § 495.304(c); 42 CFR § 495.4.
15
   Social Security Act § 1903(t); 42 CFR § 495.302.
16
   42 CFR § 495.368(a)(1)(i); CMS State Medicaid Director Letter, August 17, 2010 (SMD# 10-016), Enclosure B. Accessed at
www.cms.gov on July 11, 2011.


OEI-05-10-00080 Early Review of States’ Planned Medicaid EHR Incentive Program Oversight
Page 4 – Donald M. Berwick, M.D.


pediatricians). 17 If, however, a practitioner is practicing predominantly in an FQHC or RHC,
then the practitioner can be eligible by having at least 30 percent needy individual patient
volume. 18 Acute care hospitals must have at least 10 percent Medicaid patient volume. There
are no patient volume requirements for children’s hospitals. 19
Patient volume percentages are calculated by dividing a specified patient volume by total patient
volume. For example, to calculate a Medicaid patient volume percentage, a State must divide
Medicaid patient volume by total patient volume. Likewise, to calculate the needy patient
volume percentage, a State must divide needy patient volume by total patient volume. 20
Practitioners and hospitals must also adopt, implement, or upgrade certified EHRs to receive
incentive payments. 21 The terms adopt, implement, and upgrade are defined by CMS in
regulation as follows: 22

     •   Adopt: Acquire, purchase, or secure access to certified EHR technology.
     •   Implement: Install or commence utilization of certified EHR technology.
     •   Upgrade: Expand the functionality of certified EHR technology, including staffing,
         maintenance, and training, or upgrade from existing EHR technology to certified EHR
         technology.
EHR technology is certified according to processes defined by the Office of the National
Coordinator for Health Information Technology. 23 Certification criteria require EHRs to
accommodate certain functions, including physician order entry and electronic prescribing. 24
Finally, to receive an incentive payment, practitioners and hospitals must register for the
incentive program in their States and attest that they meet eligibility requirements. 25 To do this,
practitioners and hospitals self-report eligibility information (e.g., patient volume, practitioner
specialty) to the State to show that they meet each of the eligibility requirements described
above. 26


17
   Social Security Act § 1903(t)(2); 42 CFR § 495.304(c).
18
   Social Security Act § 1903(t)(2) and 42 CFR § 495.304(c). A needy individual is defined as someone who receives either
Medicaid or Children’s Health Insurance Program (CHIP) medical assistance, receives uncompensated care, or receives care at
no cost or on a sliding scale determined by ability to pay. 42 CFR § 495.302. Practicing predominantly in an FQHC or RHC
means that a practitioner treats over 50 percent of his or her total patient volume over a period of 6 months in an FQHC or RHC.
42 CFR § 495.302.
19
   Social Security Act § 1903(t)(2)(B); 42 CFR § 495.306(f).
20
   42 CFR § 495.306.
21
   Social Security Act § 1903(t)(6)(C)(i); 42 CFR § 495.314.
22
   42 CFR § 495.302.
23
   Social Security Act § 1903(t)(3). In a July 2010 final rule (75 Fed. Reg. 44590), the Office of the National Coordinator for
Health Information Technology specified the technical criteria that EHRs must meet to be certified.
24
   45 CFR §§ 170.302 and 170.304.
25
   42 CFR § 495.8. Practitioners who register for the Medicare EHR Incentive program and receive a Medicare incentive
payment are prohibited from receiving a Medicaid EHR incentive payment. Eligible hospitals may receive both Medicare and
Medicaid incentive payments. See Social Security Act § 1903(t)(7).
26
   42 CFR § 495.312.


OEI-05-10-00080 Early Review of States’ Planned Medicaid EHR Incentive Program Oversight
Page 5 – Donald M. Berwick, M.D.


Related Office of Inspector General Work
This study on State oversight of Medicaid EHR incentive programs is the first in a series of
studies by the Office of Inspector General (OIG) on CMS’s EHR incentive programs. In a
subsequent review, we will examine the Medicare EHR incentive program.
Previously, OIG published a report reviewing States’ initiatives on health information
technology and health information exchange. OIG identified 25 States involved in planning and
developing statewide health information exchange networks. The report also found that nine
States had implemented systems that allowed practitioners and hospitals to look at Medicaid
beneficiaries’ claims history. 27


METHODOLOGY

Scope
We reviewed 13 of the 14 States that had approved Medicaid EHR incentive program plans,
officially known as State Medicaid Health IT Plans, as of January 14, 2011. We reviewed these
States’ 2011 prepayment and postpayment oversight plans for their EHR incentive programs.
Specifically, we focused on States’ oversight plans to ensure that practitioners and hospitals met
EHR incentive program eligibility requirements. We did not review any eligibility requirements
or aspects of payment that CMS elected to verify on behalf of States, such as verifying that
hospitals are an eligible hospital type or preventing duplicate Medicare incentive payments to
practitioners.
Data Collection and Analysis
We collected States’ oversight plans and held structured interviews with CMS and State staff.
We requested from CMS the current version of States’ oversight plans for the 14 States with
CMS approval as of January 14, 2011.
We conducted structured phone interviews with 13 of these 14 States between January and
February 2011. One State was unavailable for an interview so we did not include it in our final
analysis. In these interviews, we asked States to clarify details of their oversight plans and
provide any recent updates to those plans. We also asked about any anticipated limitations or
challenges to their planned oversight.
Finally, we interviewed CMS staff to better understand their review and approval of States’
oversight plans.
To describe States’ planned oversight, we conducted document reviews of 13 States’ approved
oversight plans and analyzed State and CMS structured interview data. We analyzed States’
oversight plans and interview data to see whether States were verifying self-reported eligibility

27
 OIG, State Medicaid Agencies’ Initiatives on Health Information Technology and Health Information Exchange,
OEI-02-06-00270, August 2007.


OEI-05-10-00080 Early Review of States’ Planned Medicaid EHR Incentive Program Oversight
Page 6 – Donald M. Berwick, M.D.


information prior to payment. We defined a verification prior to payment as a State’s
comparison of self-reported eligibility information to another data source prior to making an
incentive payment. We also reviewed States’ plans to check eligibility requirements after
payment. Table 1 shows the eligibility requirements that we included in our analysis.

Table 1: Eligibility Requirements Analyzed*

Requirement                                                                                 Applies to Practitioners   Applies to Hospitals

Practitioner Type

Practitioners must be one of the permissible practitioner types                                                               -

Qualifications

Practitioners and hospitals must be licensed to practice in the State                                                        
Practitioners and hospitals must not be excluded, sanctioned, or otherwise
deemed ineligible to receive payments from the State                                                                         

Patient Volume
Practitioners must have at least a 30% Medicaid patient volume (or 20%
for pediatricians) if they are not practicing predominantly in an FQHC or                                                     -
RHC

Practitioners must have at least a 30% needy individual patient volume if
they are practicing predominantly in an FQHC or RHC                                                                           -

Hospitals must have at least 10% Medicaid patient volume (acute care
hospital only)                                                                                                                 

Practice Location

Practitioners must not be hospital-based                                                                                      -

If practitioner is a PA, he or she must practice in a PA-led FQHC or RHC                                                      -

Average Length of Stay

Must have an average length of stay of 25 days or less (acute care hospital
only)
                                                                                                        -                      

Adoption, Implementation, or Upgrade of Certified EHR Technology

Practitioners and hospitals must adopt, implement, or upgrade an EHR                                                         
Practitioners and hospitals must have certified EHR technology                                                               
Source: OIG analysis of CMS Regulations, 2011.
*These represent the subset of eligibility requirements for which States have primary responsibility.


Limitations
This study reports on States’ oversight plans, which may change as States implement them. We
did not verify the accuracy of States’ reports regarding the availability of data.
Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.



OEI-05-10-00080 Early Review of States’ Planned Medicaid EHR Incentive Program Oversight
Page 7 – Donald M. Berwick, M.D.


RESULTS

All 13 States Reported That They Plan To Verify at Least Half of Eligibility Requirements
Prior To Making EHR Incentive Payments
Thirteen States reported that they plan to verify self-reported eligibility information for at least
half of eligibility requirements prior to payment. States compare self-reported eligibility
information to other data sources to verify an eligibility requirement. Although CMS does not
require States to verify self-reported eligibility information prior to payment, doing so helps
States proactively ensure the integrity of their EHR incentive payments. Table 2 shows the
number and percentage of eligibility requirements that each State plans to verify prior to
payment.

 Table 2: Number of Eligibility Requirements That States
 Plan To Verify Prior to Payment

                               Number of Eligibility
                                                                           Percentage of Total
 State                      Requirements That State
                                                                      Eligibility Requirements
                                    Plans To Verify

 Kentucky                                              11                               100%
 Alaska                                                10                                91%
 Alabama                                               10                                91%
 Mississippi                                             9                               82%
 Tennessee                                               9                               82%
 North Carolina                                          8                               73%
 Michigan                                                8                               73%
 Texas                                                   7                               64%
 Oklahoma                                                7                               64%
 South Carolina                                          7                               64%
 Iowa                                                    7                               64%
 Pennsylvania                                            7                               64%
 Wisconsin                                               6                               55%
 Source: OIG analysis of State oversight plans and State interviews, 2011.



In addition, all 13 States reported that they plan to audit eligibility requirements after payment.
States reported that they are still developing their specific plans but 11 States plan to begin audits
in 2011. One State plans to begin audits in 2012 and another State had not decided when it
would start its audits.
Data Availability Limits Both the Number of Eligibility Requirements That States Plan To
Verify Prior to Payment and the Completeness of Those Verifications
States can only completely verify an eligibility requirement if data are available for comparison
to self-reported eligibility information.


OEI-05-10-00080 Early Review of States’ Planned Medicaid EHR Incentive Program Oversight
Page 8 – Donald M. Berwick, M.D.


Over half of States did not report plans to verify three specific eligibility requirements prior to
payment because necessary data are not currently collected. These States do not have the data
they need to verify three eligibility requirements because they do not typically collect the
necessary data. In the past, States did not need to collect these data for Medicaid operations.
Further, the few States that plan to collect all the necessary data to verify these three eligibility
requirements are doing so by contacting each practitioner or hospital, which is resource intensive
and logistically impractical for most States. Table 3 shows the number of States that do not plan
to verify certain eligibility requirements prior to payment.

Table 3: Eligibility Requirements That Most States Do Not Plan To Verify Prior to
Payment

                                                              Number of          Number of           Examples of Data          Number of
                                                             States That        States That          Sources Used for         States That
Eligibility Requirement
                                                          Plan Complete         Plan Partial        Complete or Partial          Plan No
                                                             Verification       Verification              Verification        Verification

Practitioners must have at least a 30% needy                                                    Contact FQHC or RHC,
individual patient volume if they are practicing                                                        FQHC reports,
predominantly in an FQHC or RHC                                                                documentation submitted
                                                                            1             2              by practitioner               10
If practitioner is a PA, he or she must practice                                                  FQHC reports; contact
in a PA-led FQHC or RHC                                                     4              -        PA, FQHC, or RHC                    9
                                                                                                         Documentation
Practitioners and hospitals must adopt,                                                         submitted by practitioner
implement, or upgrade an EHR                                                                   or hospital (e.g., receipts,
                                                                            5              -            vendor contract)                8
Source: OIG analysis of State oversight plans and State interviews, 2011.




Ten States do not plan to verify prior to payment whether practitioners who are practicing
predominantly at an FQHC or RHC have at least 30 percent needy patient volume. To verify
practitioners’ needy patient volume percentage, States need both the practitioners’ needy patient
volume and total patient volume. By definition, needy patient volume and total patient volume
include patient volume for which Medicaid does not reimburse. As such, some States reported
that practitioners’ needy patient volume and total patient volume are not reflected in States’
Medicaid Management Information Systems (MMIS) and States do not otherwise regularly
collect this information. 28 Without practitioners’ needy patient volume or total patient volume,
10 States are unable to do any verification on this eligibility requirement prior to payment. See
Figure A-1 in Appendix A to view the components of the needy patient volume percentage
calculation and what data some States reported not having.
Three States plan to seek new data sources so they can verify all or part of needy patient volume
percentages prior to payment. Two States plan to contact practitioners directly for supporting
documentation of needy patient volume. One State plans to use patient volume information in

28
     MMIS are States’ Medicaid claims processing systems.


OEI-05-10-00080 Early Review of States’ Planned Medicaid EHR Incentive Program Oversight
Page 9 – Donald M. Berwick, M.D.


reports that FQHCs prepare for the Health Resources and Services Administration (HRSA).
However, this approach may not be viable; another State reported that HRSA stated that the data
in these reports are not usable for checking needy patient volume.
Nine States do not plan to verify prior to payment whether PAs practice at PA-led FQHCs or
RHCs. States do not have data that they can use to determine this. The remaining four States
plan to seek out alternative data sources to verify this requirement. Examples of alternative data
sources include reports that FQHCs prepare for HRSA, contacting State associations for FQHCs
and RHCs, and contacting FQHCs and RHCs directly.
Finally, eight States do not plan to verify whether practitioners and hospitals actually adopted,
implemented, or upgraded EHRs prior to payment. States do not have an existing data source for
this. Despite this difficulty, five States plan to completely verify this eligibility requirement by
having practitioners and hospitals submit documentation to demonstrate that they have adopted,
implemented, or upgraded EHR technology.

Almost all States reported plans to partially verify practitioners’ Medicaid patient volume
percentages because only some of the necessary data are available. Eleven of thirteen States
reported that they plan only partial verifications of practitioner Medicaid patient volume
percentages. They plan to use Medicaid claims data in MMIS to verify self-reported Medicaid
patient volume. This is a partial verification because it only verifies the Medicaid component of
the Medicaid patient volume percentage calculation. Table 4 shows the number of States that
plan partial verifications of this eligibility requirement.

Table 4: Eligibility Requirement That Most States Plan To Partially Verify Prior to
Payment

                                                              Number of          Number of       Example of Data       Number of
                                                             States That        States That      Source Used for      States That
Eligibility Requirement
                                                         Plan Complete          Plan Partial   Complete or Partial       Plan No
                                                            Verification        Verification         Verification     Verification
Practitioners must have at least a 30%
Medicaid patient volume (or 20% for                                                                 Documentation
pediatricians) if they are not practicing                                                             submitted by
predominantly in an FQHC or RHC                                             1            11            practitioner             1
Source: OIG analysis of State oversight plans and State interviews, 2011.



Five of the eleven States reported that they plan to partially verify Medicaid patient volume
percentages because they do not have data to do complete verifications. Complete verification of
Medicaid patient volume percentages is only possible if States have data to verify total patient
volume, the denominator component of the Medicaid patient volume calculation. While five
States reported not having total patient volume, the remaining six States likely face similar issues
because States typically have no reason to collect total patient volume data. States would not
generally collect data on total patient volume because they include patient visits for which States


OEI-05-10-00080 Early Review of States’ Planned Medicaid EHR Incentive Program Oversight
Page 10 – Donald M. Berwick, M.D.


do not reimburse (e.g., private pay and uncompensated care). See Figure A-2 in Appendix A to
view the components of the Medicaid patient volume percentage calculation and the data some
States reported not having.

One State will require all practitioners to submit reports from their practice management systems
supporting their self-reported total patient volume. State staff will then manually review the
submitted reports and completely verify Medicaid patient volume percentages.
Further, most States reported that MMIS data they plan to use for their verifications of Medicaid
patient volume may not be accurate in some cases. These cases involve Medicaid claims for
services reimbursed at a bundled rate and Medicaid claims in which not all of a rendering
practitioner’s patient volume is reflected in MMIS claims data.

    •   Six of twelve States reported that the MMIS claims data they plan to use to verify
        practitioners’ Medicaid patient volume prior to payment do not reflect actual patient
        volume for services reimbursed at a bundled rate. For example, some States pay one flat
        fee to obstetrician/gynecologist (OB/GYN) specialists for all patient visits associated
        with prenatal care (i.e., a bundled rate). While each distinct patient visit should be
        included in the OB/GYN’s Medicaid patient volume, States’ MMIS systems only reflect
        one claim for the entire series of visits. As a result, when a State compares MMIS claims
        to the OB/GYN’s self-reported Medicaid patient volume, it may incorrectly conclude that
        the OB/GYN overreported his or her Medicaid patient volume.
        Two States reported solutions to this problem. One plans to use an existing State
        database in which OB/GYN specialists report actual utilization data to accurately count
        the number of distinct patient visits. Another State plans to estimate the number of visits
        associated with each payment for bundled services and to use that estimate to check
        Medicaid patient volume.

    •   Ten States reported that MMIS claims data do not reflect accurate patient volume for a
        rendering practitioner (i.e., a practitioner who treats patients) who submits claims through
        a billing practitioner (i.e., a practitioner who bills Medicaid for services performed by
        rendering practitioners). This scenario might occur, for example, when a nurse
        practitioner sees a patient, but the visit is billed by a supervising physician. In such
        cases, a State that compares the nurse practitioner’s self-reported Medicaid patient
        volume to MMIS claims would underestimate the patient volume because there would be
        no claim in MMIS to represent the patient visit. No States reported a comprehensive
        solution to the confusion between rendering and billing practitioners.

Most States reported plans to completely verify eligibility requirements for which data are
available. Twelve of the 13 States reported plans to use existing data in their MMIS systems to
perform complete verifications of certain eligibility requirements. These 12 States plan to look


OEI-05-10-00080 Early Review of States’ Planned Medicaid EHR Incentive Program Oversight
Page 11 – Donald M. Berwick, M.D.


up specialty codes in their MMIS to verify that practitioners are eligible. These 12 States also
plan to verify practitioners’ and hospitals’ Medicaid enrollment status using MMIS, which
indicates that they are not barred from receiving Medicaid reimbursements and that they have
appropriate licensure. The one additional State plans to reference records maintained by its
department of health to verify that practitioners are an eligible practitioner type, and that
practitioners and hospitals have appropriate licensure and are not barred from receiving Medicaid
reimbursements. Finally, 10 States plan to use place of service codes on practitioners’ MMIS
claims to verify that practitioners do not have 90 percent or more of their professional services in
a hospital inpatient or emergency room setting (i.e., practitioner is not hospital-based).
Table 5 shows the number of States that plan to completely verify certain eligibility requirements
and the data sources they plan to use.

Table 5: Eligibility Requirements That Almost All States Plan To Completely Verify Prior to
Payment

                                                                             Number of      Number of      Examples of Data       Number of
                                                                       States That Plan    States That     Sources Used for      States That
Eligibility Requirement
                                                                              Complete     Plan Partial   Complete or Partial       Plan No
                                                                            Verification   Verification         Verification     Verification

Practitioners must be one of the permissible practitioner
types                                                                                13               -                 MMIS                -
Practitioners and hospitals must be licensed to practice in
the State                                                                            13               -                 MMIS                -
Practitioners and hospitals must not be excluded,
sanctioned, or otherwise deemed ineligible to receive
payments from the State Medicaid agency                                              13               -                 MMIS                -
                                                                                                              Certified Health
Practitioners and hospitals must have certified EHR                                                               Information
technology                                                                                                  Technology (HIT)
                                                                                                          Product List (CHPL)
                                                                                     13               -              database               -
Practitioners must not be hospital-based
                                                                                     10               -                 MMIS               3
Hospitals must have at least 10% Medicaid patient volume                                                    Medicare hospital
(acute care hospital only)                                                            9              3     cost reports; MMIS              1
Hospitals must have an average length of stay of 25 days                                                    Medicare hospital
                                                                                      8
or less (acute care hospital only)                                                                         cost reports; MMIS              5
Source: OIG analysis of State oversight plans and State interviews, 2011.




All 13 States plan to use the CHPL database to verify that practitioners and hospitals have
certified EHR technology. 29 For this verification, 10 States have created electronic interfaces
with the CHPL database to verify that practitioners and hospitals have submitted valid certified
EHR technology codes. Three States plan to manually compare practitioners’ and hospitals’

29
  The CHPL database contains a list of EHR products that have been certified according to regulations promulgated by the
Office of the National Coordinator for HIT.


OEI-05-10-00080 Early Review of States’ Planned Medicaid EHR Incentive Program Oversight
Page 12 – Donald M. Berwick, M.D.


self-reported EHR technology codes against the CHPL database. These States reported that they
may automate this process at a later date.

Finally, most States also plan to use Medicare hospital cost reports to verify two hospital
eligibility requirements. 30 Nine States will use Medicare hospital cost reports to help them
completely verify hospitals’ reported Medicaid patient volume percentages. Eight States
reported that they plan to use Medicare hospital cost reports to verify prior to payment that
hospitals have an average length of stay of 25 days or less.

CONCLUSION

All 13 States in our study reported that they plan to verify at least half of eligibility requirements
prior to making EHR incentive payments. Where data are available to do so, States plan to
compare self-reported eligibility information to other data sources. Verifying self-reported
eligibility information prior to making payments helps States ensure the integrity of their EHR
incentive payments. In addition, all States reported that they are in the process of developing
plans to audit eligibility requirements after payment.
However, we found that data availability limits both the number of requirements that States can
verify prior to payment and the completeness of those verifications. For certain eligibility
requirements, States do not currently collect the data they need to conduct complete
verifications. Further, not many States reported plans to start collecting all the necessary data
because the effort would be resource intensive and logistically impractical for most States.
Almost all States plan to conduct partial verifications of practitioners’ Medicaid patient volume
using existing Medicaid claims data. They do not plan to conduct complete verifications because
they do not have total patient volume, which they need to completely verify practitioners’
Medicaid patient volume. Finally, States plan to completely verify eligibility requirements for
which they report that data are available to do so.
The data limitations identified in this report affect States’ ability to proactively ensure the
integrity of their EHR incentive payments. Therefore, States should take these limitations into
account when planning their program oversight. For example, States could strengthen oversight
of their EHR incentive programs by focusing postpayment audits on eligibility requirements that
cannot be completely verified prior to payment. Additionally, States that have not yet started
their EHR incentive programs should note the potential inaccuracies in using MMIS claims data
to verify Medicaid patient volume that we highlight in this report, and plan accordingly when
designing prepayment verifications.



30
  Medicare hospital cost reports include hospital utilization data, cost, and charges associated with patient care. See Cost
Reports: General Information. Accessed at www.cms.gov on May 19, 2011.


OEI-05-10-00080 Early Review of States’ Planned Medicaid EHR Incentive Program Oversight
Page 13 – Donald M. Berwick, M.D.


This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number 05-10-00080 in all correspondence.




OEI-05-10-00080 Early Review of States’ Planned Medicaid EHR Incentive Program Oversight
Page 14 – Donald M. Berwick, M.D.


APPENDIX A

Figure A-1: Needy Individual Patient Volume Percentage Calculation for Practitioners Practicing Predominantly in a
Federally Qualified Health Center or Rural Health Center


                                                           States may not have these data




                                                                 Uncompensated/
                                         Medicaid     CHIP*                                    Numerator: Needy
                                                                  Sliding Scale
                                                                                               Individual Patient Volume

      %=
                                                                Private/     Uncompensated/
                        Medicaid         CHIP*      Medicare                                   Denominator: Total
                                                                Self-Pay      Sliding Scale    Patient Volume



                                                          States may not have these data


* Children’s Health Insurance Program.




Figure A-2: Medicaid Patient Volume Percentage Calculation for Practitioners and Hospitals




                                                        Medicaid                               Numerator: Medicaid
                                                                                               Patient Volume

      %=
                                                                Private/      Uncompensated/
                        Medicaid         CHIP       Medicare                                   Denominator: Total
                                                                Self-Pay       Sliding Scale   Patient Volume



                                                           States may not have these data




OEI-05-10-00080 Early Review of States’ Planned Medicaid EHR Incentive Program Oversight
